                   AUDIT REPORT
                Audit of NRC’s Deployment of the National
                         Source Tracking System

                      OIG-10-A-16      August 30, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          August 30, 2010


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S DEPLOYMENT OF THE NATIONAL
                           SOURCE TRACKING SYSTEM (OIG-10-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled, NRC’s
Deployment of the National Source Tracking System.

This report presents the results of the subject audit. Agency comments provided during
a July 28, 2010, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5912.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Hubert T. Bell, Inspector General
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
Marc L. Dapas, Acting Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                        Audit of NRC’s Deployment of the National Source Tracking System

EXECUTIVE SUMMARY



                  The National Source Tracking System (NSTS) is a centralized database
                  developed and managed by the Nuclear Regulatory Commission (NRC) to
                  help NRC and Agreement State regulatory agencies1 account for select
                  categories of high-risk radiological sources held by approximately 1,300
                  licensees.2 Specifically, NSTS is used to monitor transactions and
                  inventories of nationally tracked sources as defined in Title 10 of the Code
                  of Federal Regulations, Part 20, Section 1003 (10 CFR 20.1003).3 These
                  nationally tracked sources include Category 1 and 2 radiological sealed
                  sources4 that have industrial, medical, and research uses.5 The
                  International Atomic Energy Agency (IAEA) characterizes Category 1 and
                  2 sources as radiological materials that pose the greatest health risks if
                  not safely managed or securely protected.6

                  NRC developed NSTS in response to the U. S. Government’s
                  endorsement of the IAEA Code of Conduct on the Safety and Security of
                  Radioactive Sources, which is the current standard used by the
1
   The Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to
license and regulate radiological materials. States that have signed formal regulatory agreements
with NRC are known as “Agreement States.”
2
  Licensees are businesses and other organizations licensed by NRC and Agreement States to possess
radiological sources.
3
   10 CFR 20.1003 defines a nationally tracked source as, “a sealed source containing a quantity equal to
or greater than Category 1 or Category 2 levels of any radioactive material listed in Appendix E of this
part. In this context a sealed source is defined as radioactive material that is sealed in a capsule or
closely bonded, in a solid form and which is not exempt from regulatory control. It does not mean
material encapsulated solely for disposal, or nuclear material contained in any fuel assembly,
subassembly, fuel rod, or fuel pellet. Category 1 nationally tracked sources are those containing
radioactive material at a quantity equal to or greater than the Category 1 threshold. Category 2 nationally
tracked sources are those containing radioactive material at a quantity equal to or greater than the
Category 2 threshold but less than the Category 1 threshold."
4
    A table of radiological sources subject to NSTS reporting appears in Appendix A.
5
  These sources do not include materials encapsulated solely for disposal, or nuclear materials contained
in fuel assemblies, subassemblies, fuel rods, or fuel pellets.
6
  The IAEA’s five-category scale provides a relative ranking of radiological sources in terms of each
source’s potential to cause immediate harmful health effects if not safely managed or securely protected.
Category 1 sources are the most hazardous, and can cause permanent injury or death if mishandled;
Category 5 sources are the least hazardous, and could not cause permanent injury.


                                                      i
                                      Audit of NRC’s Deployment of the National Source Tracking System


                international community to govern safety and security of radioactive
                material based on the IAEA categorization system.7 In addition, the
                Energy Policy Act of 2005 required NRC to issue regulations establishing
                a mandatory tracking system for radiation sources in the United States.
                NRC deployed NSTS in December 2008, thereby enabling licensees to
                begin reporting radiological source inventories and transactions by
                January 31, 2009, as required by Title 10 of the Code of Federal
                Regulations, Part 20, Section 2207.

                NSTS enables licensees to report via the Internet transactions of
                nationally tracked sources, including the manufacture, import, export,
                transfer, and receipt of these sources.8 Licensees can also report
                transaction data by other means such as facsimile, e-mail, or standard
                mail. Approximately 200 source transactions are processed daily in
                NSTS.




                The audit’s objective was to determine if the National Source Tracking
                System meets its required operational capabilities.




                NSTS satisfies basic operational requirements, including functional
                capabilities for capturing data and security features for protecting data.
                However, Office of the Inspector General (OIG) auditors developed
                findings regarding NSTS smart card utilization, data quality, and access
                controls.

                Licensees Have Not Fully Adopted NSTS Technology

                NSTS was designed primarily to be an Internet-based system enabling
                direct data entry by licensees. However, a majority of the licensee user



7
  A joint Department of Energy /NRC Interagency Working Group on Radiological Dispersal Devices also
recommended a national source tracking system following its work during 2002-2003.
8
  The Energy Policy Act of 2005 established requirements for identifying individual radiological sources
(e.g., by serial number), and for reporting any change of possession or loss of control of these materials.
In addition, this legislation required a capability for reporting through a secure Internet connection.



                                                     ii
                  Audit of NRC’s Deployment of the National Source Tracking System


population has not fully adopted technology required for direct access to
NSTS. This trend is caused by challenges inherent in the NSTS
credentialing process, as well as technical problems encountered by
licensees in using the smart card devices. Further, Help Desk contractor
personnel are not always capable of resolving application and set-up
problems encountered by NSTS users. As a result, NRC has incurred
administrative costs from updating NSTS on behalf of licensees who opt
not to enter their source transaction and inventory data into NSTS.

NSTS Has Data Quality Problems with Timeliness and Accuracy

Internal control standards for Federal Government agencies recommend
that data be processed in a timely manner to maintain its relevance and
operational value to management. NSTS is designed with automated
security controls to ensure the integrity of data entered into the system;
however, OIG auditors found problems with the timeliness of NSTS data
regarding source transfers. These problems result primarily from the
process by which data is reported and manually uploaded into NSTS.
Although NSTS cannot provide “real time” tracking of licensees’ source
transactions and inventories, NRC and Agreement State personnel must
have reliable information to perform their oversight duties.

Least Privilege Principle Not Consistently Applied to NSTS Access
Controls

Federal Government internal controls standards for information systems
recommend security controls to protect systems and networks from
inappropriate access and unauthorized use. Although NSTS access rights
for licensee personnel are scaled to individual users’ job needs, some
NRC staff have broader access rights that do not reflect individuals’ job
needs or organizational roles. This occurs because NRC lacks a
procedure for scaling staff access rights to their respective job needs.
Although OIG auditors did not find evidence of internal NSTS data
breaches, the lack of a procedure to ensure consistent application of the
least privilege principle increases the risk that NSTS data could be
intentionally or accidentally compromised.




                               iii
                 Audit of NRC’s Deployment of the National Source Tracking System




This report makes four recommendations. A consolidated list of
recommendations appears in Section IV of this report.




At an exit conference held on July 28, 2010, agency management stated
their general agreement with the findings and recommendations in this
report. Agency management also provided supplemental information that
has been incorporated into this report as appropriate. As a result, the
agency opted not to provide formal comments for inclusion in this report.




                              iv
                 Audit of NRC’s Deployment of the National Source Tracking System


ABBREVIATIONS AND ACRONYMS

     CFR     Code of Federal Regulations

     CSO     Computer Security Office

     FSME    Office of Federal and State Materials and Environmental
             Management Programs

     FTE     Full Time Equivalent

     IAEA    International Atomic Energy Agency

     NIST    National Institute of Standards and Technology

     NRC     Nuclear Regulatory Commission

     NSTS    National Source Tracking System

     OIG     Office of the Inspector General

     OIS     Office of Information Services

     OMB     Office of Management and Budget




                              v
                                 Audit of NRC’s Deployment of the National Source Tracking System


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ v

        I.    BACKGROUND .................................................................................. 1

        II.   PURPOSE .......................................................................................... 5

        III. FINDINGS ........................................................................................... 6

                 A. Licensees Have Not Fully Adopted
                    NSTS Technology...................................................................... 6

                 B. NSTS Has Data Quality Problems with Timeliness
                    and Accuracy ........................................................................... 10

                 C. Least Privilege Principle Not Consistently Applied
                    to NSTS Access Controls ........................................................ 13

        IV. CONSOLIDATED LIST OF RECOMMENDATIONS ......................... 15

        V. AGENCY COMMENTS ..................................................................... 15


    APPENDICES

        A. TABLE OF NATIONALLY TRACKED SOURCES
           LISTED IN 10 CFR 20, APPENDIX E................................................. 16

        B. NRC FORM 748 NSTS TRANSACTION REPORT ............................ 17

        C. SURVEY DISTRIBUTED TO AGREEMENT STATE
           PERSONNEL ..................................................................................... 18

        D. SURVEY DISTRIBUTED TO LICENSEE PERSONNEL .................... 21

        E. SCOPE AND METHODOLOGY ......................................................... 24



                                                  vi
                                        Audit of NRC’s Deployment of the National Source Tracking System

I.        BACKGROUND

                  National Source Tracking System Overview

                  The National Source Tracking System (NSTS) is a centralized database
                  developed and managed by the Nuclear Regulatory Commission (NRC) to
                  help NRC and Agreement State regulatory agencies9 account for select
                  categories of high-risk radiological sources held by approximately 1,300
                  licensees.10 Specifically, NSTS is used to monitor transactions and
                  inventories of nationally tracked sources as defined in Title 10 of the Code
                  of Federal Regulations, Part 20, Section 1003 (10 CFR 20.1003).11 These
                  nationally tracked sources include Category 1 and 2 radiological sealed
                  sources12 that have industrial, medical, and research uses.13 The
                  International Atomic Energy Agency (IAEA) characterizes Category 1 and
                  2 sources as radiological materials that pose the greatest health risks if
                  not safely managed or securely protected.14

                  NRC developed NSTS in response to the U. S. Government’s
                  endorsement of the IAEA Code of Conduct on the Safety and Security of
                  Radioactive Sources, which is the current standard used by the
9
   The Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to
license and regulate radiological materials. States that have signed formal regulatory agreements
with NRC are known as “Agreement States.”
10
  Licensees are businesses and other organizations licensed by NRC and Agreement States to possess
radiological sources.
11
   10 CFR 20.1003 defines a nationally tracked source as, “a sealed source containing a quantity equal
to or greater than Category 1 or Category 2 levels of any radioactive material listed in Appendix E of this
part. In this context a sealed source is defined as radioactive material that is sealed in a capsule or
closely bonded, in a solid form and which is not exempt from regulatory control. It does not mean
material encapsulated solely for disposal, or nuclear material contained in any fuel assembly,
subassembly, fuel rod, or fuel pellet. Category 1 nationally tracked sources are those containing
radioactive material at a quantity equal to or greater than the Category 1 threshold. Category 2 nationally
tracked sources are those containing radioactive material at a quantity equal to or greater than the
Category 2 threshold but less than the Category 1 threshold."
12
     A table of radiological sources subject to NSTS reporting appears in Appendix A.
13
  These sources do not include materials encapsulated solely for disposal, or nuclear materials
contained in fuel assemblies, subassemblies, fuel rods, or fuel pellets.
14
  The IAEA’s five-category scale provides a relative ranking of radiological sources in terms of each
source’s potential to cause immediate harmful health effects if not safely managed or securely protected.
Category 1 sources are the most hazardous, and can cause permanent injury or death if mishandled;
Category 5 sources are the least hazardous, and could not cause permanent injury.


                                                      1
                                        Audit of NRC’s Deployment of the National Source Tracking System


                   international community to govern safety and security of radioactive
                   material based on the IAEA categorization system.15 In addition, the
                   Energy Policy Act of 2005 required NRC to issue regulations establishing
                   a mandatory tracking system for radiation sources in the United States.
                   NRC deployed NSTS in December 2008, thereby enabling licensees to
                   begin reporting radiological source inventories and transactions by
                   January 31, 2009, as required by 10 CFR 20.2207.

                   NSTS enables licensees to report via the Internet transactions of
                   nationally tracked sources, including the manufacture, import, export,
                   transfer, and receipt of these sources.16 Licensees can also report source
                   transaction data by other means such as facsimile, e-mail, or standard
                   mail. Approximately 200 source transactions are processed daily in
                   NSTS.

                   Program Offices

                   The Office of Federal and State Materials and Environmental
                   Management Programs (FSME) is responsible for NSTS operations.
                   FSME staff conduct training for Agreement State and licensee personnel,
                   and maintain an Internet page offering user guidance and program
                   updates. FSME staff also monitor data in NSTS, and conduct an annual
                   inventory review in which licensees compare their physical inventories
                   with NSTS inventory data, and reconcile any discrepancies between the
                   two.17 A contractor operates and maintains NSTS for FSME, and also
                   processes data submitted by licensees for entry into NSTS.18 The FSME
                   contractor also runs the NSTS Help Desk, whose personnel provide
                   technical assistance to NSTS users. As of March 2010, total obligated




15
   A joint Department of Energy-NRC Interagency Working Group on Radiological Dispersal Devices also
recommended a national source tracking system following its work during 2002-2003.
16
   The Energy Policy Act of 2005 established requirements for identifying individual radiological sources
(e.g., by serial number), and for reporting any change of possession or loss of control of these materials.
In addition, this legislation required a capability for reporting through a secure Internet connection.

17
  This “annual inventory reconciliation” is required by 10 CFR 20.2207. Licensees must validate their
inventory data in NSTS by January 31 of each year.
18
     For clarity, this report refers to FSME’s NSTS contractor as the “FSME contractor.”



                                                       2
                                          Audit of NRC’s Deployment of the National Source Tracking System


                   funding for the NSTS contract was approximately $20 million, which
                   included approximately $10.8 million for operations, maintenance, and
                   user support.19 Graph 1 illustrates a breakout of operational support,
                   maintenance, and user support contract costs current as of March 2010.

                   NSTS Program Resources

                   Graph 1: Obligated Contract Funds for NSTS Operational Support,
                   Maintenance, and User Support


                NSTS Contract Obligations for Operational Support,
                        Maintenance, and User Support
                                  (in $Millions)
 NSTS User
  Support
   $3.9M


                                                                                           NSTS Operational
                                                                                              Support
                                                                                               $5.2M




     NSTS
     Maintenance
     $1.7M
Source: OIG Analysis


                   The Office of Information Services (OIS) supports NSTS by managing a
                   contract for credentialing NSTS users and providing users with equipment
                   needed to access NSTS via the Internet.20 OIS provides credentialing
                   services for other NRC programs under this agencywide contract;
                   however, contract costs directly attributable to NSTS were approximately
                   $3.2 million from October 2008 through March 2010. In addition to
                   contract management, OIS staff assist NSTS users with technical
                   problems that the NSTS Help Desk cannot resolve.


19
 The remaining $9.2 million in contract obligations reflect NSTS development tasks.
20
     For clarity, this report refers to OIS’s credentialing contractor as the “OIS contractor.”


                                                          3
                  Audit of NRC’s Deployment of the National Source Tracking System


The Computer Security Office (CSO) is responsible for ensuring that
NSTS complies with the Federal Information Security Management Act
(FISMA), which outlines the information security management
requirements for Federal agencies. As part of this effort, CSO conducts
annual testing of automated and procedural security controls listed in the
NSTS system security plan to ensure these controls function as planned.
In addition to ensuring FISMA compliance, CSO staff lead incident
response activities in the event of an information system breach.

NRC staff based in all of the regional offices use NSTS data for
conducting inspections of licensees. Some region-based staff also serve
on temporary assignments in support of NSTS program operations. In
total, NRC committed 7.4 direct full-time equivalent personnel (FTE) to the
NSTS program in Fiscal Year 2009, and 5.8 FTE through the second
quarter of Fiscal Year 2010. Although several headquarters offices
support NSTS, only FSME and OIS had direct labor charges to the
program.

NSTS User Credentialing

To access NSTS online, users must become credentialed through a multi-
step process. After NRC staff identify potential NSTS online users based
on their job requirements, the first step in credentialing requires an
applicant to enroll online. The second step is to review and approve the
online application. In the third step, OIS contractor personnel mail an
enrollment package to prospective NSTS users, who must complete forms
in their enrollment packages, sign an identity declaration in the presence
of a public notary, and return the completed enrollment packages to the
OIS contractor. Finally, after receiving the completed enrollment
packages, OIS contractor personnel verify the identity and employment
status of each prospective NSTS user.

Following successful completion of the application process, each NSTS
user receives a “smart card” and card reader. Smart cards help prevent
unauthorized access to NSTS by authenticating users when they log into
the system via the Internet. Figure 1 depicts an NSTS smart card.




                               4
                                       Audit of NRC’s Deployment of the National Source Tracking System


                 Figure 1: NSTS Smart Card Illustration




Source: NRC


                 Upon receiving this equipment, an NSTS user must download digital
                 certificates21 onto the smart card, and install on his/her computer software
                 that enables the smart card equipment to function. Once NSTS users set
                 up this hardware and software on their computers, FSME staff activate
                 users’ accounts, thereby enabling them to read and enter data into NSTS.



II.   PURPOSE

                 The audit’s objective was to determine if the National Source Tracking
                 System meets its required operational capabilities. See Appendix E for
                 more information on the audit scope and methodology.




21
   A digital certificate is an electronic identifier that establishes a user’s credentials when processing
transactions on the Internet. NSTS is designed with multi-factor authentication to verify each user’s
identity. System users must enter a user name and password in conjunction with their smart cards to
gain access to NSTS.


                                                      5
                                    Audit of NRC’s Deployment of the National Source Tracking System


III. FINDINGS

               NSTS satisfies basic operational requirements, including functional
               capabilities for capturing data and security features for protecting data.22
               Further, an NSTS configuration control board comprised of NRC staff,
               information technology contractors, Agreement State representatives, and
               a representative from industry meets several times a year to evaluate
               potential system upgrades on a cost-benefit basis. This internal control
               mechanism enables NRC to gather feedback from system users on ways
               to improve NSTS functionality, and provides NRC management with
               information to guide resourcing decisions. During this audit, Office of the
               Inspector General (OIG) auditors developed findings and associated
               recommendations regarding NSTS smart card utilization, data quality, and
               access controls. By addressing these issues, NRC can improve program
               efficiency and strengthen oversight of licensees that possess and transfer
               Category 1 and 2 radiological sealed sources.

       A. Licensees Have Not Fully Adopted NSTS Technology

               NSTS was designed primarily to be an Internet-based system enabling
               direct data entry by licensees. However, a majority of the licensee user
               population has not fully adopted technology required for direct access to
               NSTS. This trend is caused by challenges inherent in the NSTS
               credentialing process, as well as technical problems encountered by
               licensees in using the smart card devices. Further, Help Desk contractor
               personnel are not always capable of resolving application and set-up
               problems encountered by NSTS users. As a result, NRC has incurred
               administrative costs from updating NSTS on behalf of licensees who opt
               not to enter their source transaction and inventory data into NSTS.

               NSTS Is Designed Primarily for Internet-Based Use

               Since the early stages of system development, NSTS was designed
               primarily to be an Internet-based system enabling direct data entry by
               licensees. The NSTS System Requirements and Needs Analyses
               supporting system design explicitly state this assumption and note that

22
  CSO performed the first annual security controls testing of NSTS in March 2010 to determine
compliance with security requirements documented in the System Security Plan, and to verify that the
security controls identified in the plan are correctly implemented. CSO recommended enhancements for
7 of the 128 controls tested.


                                                  6
                                       Audit of NRC’s Deployment of the National Source Tracking System


                  licensees need a Web-based interface for “near real-time” reporting.
                  NRC’s Office of Management and Budget (OMB) Exhibit 300 submission,
                  which declares costs and benefits of NRC information technology
                  investments to OMB, describes qualitative benefits expected to result from
                  NSTS’s Internet-based architecture, such as minimized data processing
                  time and ready support for an expandable user base.

                  Licensees Have Not Adopted Technology Needed for Internet Access
                  to NSTS

                  Despite these assumptions, the licensee user population has not fully
                  adopted technology required for direct Internet access to NSTS. For
                  example, an NRC staff analysis estimated that only one-third of licensee
                  personnel who must report source data to NSTS had online system
                  access by November 2009. The analysis predicted that the population of
                  licensees with direct access to NSTS would not increase substantially.
                  This analysis is reinforced by May 2010 data showing that about 41
                  percent of licensees23 had one or more credentialed users at this point in
                  time.24 Further, OIG auditors’ survey of licensee personnel who are listed
                  as active NSTS users (i.e., users with active NSTS accounts) found that
                  approximately 31 percent of the respondents typically report transaction
                  data to NRC by facsimile.25

                  Credentialing and Technical Issues Present Challenges to
                  Online Use

                  Licensees’ low participation in using NSTS Internet-based technology is
                  caused by challenges inherent in the NSTS credentialing process, as well
                  as technical problems encountered by licensees in their deployment and
                  use of smart card devices. Credentialing process challenges include
                  rigorous standards for completing NSTS application documents, which do
                  not allow for even minor discrepancies between an applicant’s personal
                  information as stated on these documents and corresponding information
                  in NRC’s records.26 Such discrepancies result in rejection of credentialing

23
     537 of 1,321 licensees.
24
     An additional 17 users were undergoing the credentialing process.
25
     See Appendix D for information on survey methodology.
26
  After OIG auditors completed fieldwork for this report, agency staff presented plans to streamline
employment verification and identity proofing procedures. NRC staff expect the revised procedures to


                                                      7
                                    Audit of NRC’s Deployment of the National Source Tracking System


               applications, thereby obligating the applicant to restart the credentialing
               process. Further obstacles include the efforts associated with completing
               applications and submitting notarized identity declarations. Process lag
               time presents yet another credentialing obstacle; although NRC aims for a
               30-day turnaround time, nearly one half of licensees surveyed by OIG
               auditors reported a 2- to 6-month wait to complete NSTS applications and
               gain access to the system.

               Technical challenges present further obstacles to online use of NSTS.
               First, NSTS users must install card readers, download digital certificates,
               and download card reader software within 30 days of completing the
               credentialing process; failure to do so results in account deactivation.
               Second, users must configure their computers to be compatible with
               NSTS, which may require technical support for users who are less skilled
               or have less familiarity with information technology. In some cases, users’
               network security settings prevent their computers from connecting to
               NSTS. Third, some operating systems and Internet browsers are not
               compatible with NSTS.27 Lastly, NSTS users have encountered technical
               problems that NSTS Help Desk personnel could not immediately resolve.

               Licensees Shift Administrative Burden of Data Reporting to NRC

               As a result of low direct use of NSTS by licensee personnel, NRC has
               incurred costs associated with the administrative burden of processing
               NSTS data on behalf of licensees. These costs are most clearly reflected
               in NSTS Help Desk and user support contract ceilings, which increased 54
               percent during the first year of operation from $2.52 million to $3.87
               million. According to NRC staff, these cost increases are largely
               attributable to unanticipated need for Help Desk support and data entry
               work performed on behalf of licensees who do not report their data directly
               to NSTS via the Internet. Moreover, these contract costs do not account
               for the resource impact on NRC staff who support licensee personnel with
               technical troubleshooting and correction of erroneous data.


reduce the number of licensees whose NSTS applications are rejected because of minor discrepancies
between employment information in NRC licensing documents and State government records.
27
  These include the Microsoft Vista and Windows 2000 operating systems, Apple operating systems, and
Apple and Firefox browsers.




                                                 8
                  Audit of NRC’s Deployment of the National Source Tracking System


Recommendations

OIG recommends that the Executive Director for Operations:

1. Assess the feasibility of alternative credentialing strategies, such as:

    a. Targeting select types of licensees for smart card use based on
       risk, business case justification, or other criteria.

    b. Reviewing NSTS e-authentication risk assessment for currency
       and, if appropriate, identify technological alternatives to smart card
       authentication.

2. Develop and implement a policy to ensure Help Desk staff are kept
   current regarding credentialing and technical issues that may
   adversely impact NSTS applicants and users.




                               9
                                     Audit of NRC’s Deployment of the National Source Tracking System


          B. NSTS Has Data Quality Problems with Timeliness and Accuracy

                   Internal control standards for Federal Government agencies recommend
                   that data be processed in a timely manner to maintain its relevance and
                   operational value to management. NSTS is designed with automated
                   security controls to ensure the integrity of data entered into the system;
                   however, OIG auditors found problems with the timeliness of NSTS data
                   regarding transfers of nationally tracked sources. These problems result
                   primarily from the process by which data is reported and manually
                   uploaded into NSTS. Although NSTS cannot provide “real time” tracking
                   of licensees’ transactions and inventories, NRC and Agreement State
                   personnel must have reliable information to perform their oversight duties.

                   Government Agencies Should Ensure Timeliness and Accuracy of
                   Data Processed by Agency Systems

                   General internal control standards for Federal Government agencies
                   recommend that data be processed in a timely manner to maintain its
                   relevance and operational value to management. Likewise, internal
                   control standards for Government information systems recommend
                   automated and administrative controls to ensure the accuracy and validity
                   of data processed by agencies’ systems.

                   High Percentages of Source Transfer Records Are Incomplete

                   NSTS is designed with automated security controls to ensure the integrity
                   of data entered into the system; however, OIG auditors found problems
                   with the timeliness and accuracy of NSTS data. For example, one report
                   from December 2009 showed that about 19 percent28 of nationally tracked
                   source transfers were at least 6-months “overdue” – that is, licensees had
                   reported outbound shipments, but the shipments lacked receipt records in
                   NSTS indicating that these shipments had reached their intended
                   destinations. Similarly, another report generated in April 2010 showed
                   that approximately 19 percent29 of shipments were at least 30-days
                   “overdue.” Shipments that appear “overdue” in NSTS are not necessarily
                   lost or misdirected. According to FSME staff, there were no reports of lost
                   or missing nationally tracked sources during the time of this audit. Rather,
28
     106 of 560 transactions.
29
     242 of 1,276 transactions.



                                                 10
                                      Audit of NRC’s Deployment of the National Source Tracking System


                   some cases reflect backlogged reports. In other instances, anomalies may
                   reflect data entry errors such as reports of shipments that never occurred,
                   licensees reporting of sub-Category 2 radiological sources,30 and
                   duplication of shipment records.31

                   NSTS Data Quality Problems Result From Reliance on Manual
                   Processes for Reporting Data

                   Problems with the accuracy and timeliness of transaction data in NSTS
                   result from the process by which data is reported and manually uploaded
                   into NSTS. Although NSTS is designed to enable direct data entry by
                   credentialed licensee personnel, most transactions are processed by
                   NRC’s contractor on behalf of licensees. For example, a December 2009
                   report showed that the FSME contractor processed approximately 70
                   percent32 of transactions during that month. Likewise, a report for one
                   week in April 2010 showed that about 48 percent of outgoing source
                   shipments were entered online by licensees,33 and approximately 28
                   percent of shipment receipts were entered online by licensees.34

                   Licensees who do not enter their own transaction and inventory data into
                   NSTS typically send this information by facsimile35 to the FSME contractor
                   site, where multiple contractor personnel are involved in processing the
                   data. FSME contractor personnel log receipt of each facsimile, and must
                   work directly with licensees to resolve problems such as incomplete or
                   illegible information. FSME contractor personnel have tried various
                   approaches for managing document flow but acknowledged some

30
  NRC regulations do not require licensees to report shipments and inventories of sub-Category 2
sources to NSTS; however, some licensees report this information.
31
  Duplicate records can appear in NSTS when a licensee reports receipt of a nationally tracked source
shipment before the sender’s shipment information has been uploaded to NSTS. In such cases, the
recipient must create a placeholder shipment record in NSTS to correspond with the receipt record.
When the sender’s shipment information is later uploaded to NSTS, this creates a duplicate “sent”
shipment record.
32
     2,025 of 2,910 transactions.
33
     262 of 547 outgoing shipments.
34
     36 of 127 receipts.
35
  To report NSTS data by facsimile or mail, licensees must submit a completed NRC Form 748
describing source types, serial numbers, transaction dates, and other relevant information. See Appendix
B for a sample NRC Form 748.



                                                  11
                                       Audit of NRC’s Deployment of the National Source Tracking System


                 difficulties, particularly during high-volume work periods. An NRC internal
                 analysis completed in January 2010 also found problems with the FSME
                 contractor’s document controls, citing reports by licensees of NSTS data
                 that remained incorrect despite licensees’ repeated efforts to submit
                 correct information to the FSME contractor. In addition, licensees do not
                 receive notification when the FSME contractor receives their Form 748s;
                 as a result, licensees may be unaware of failed or incomplete facsimile
                 transmissions.36

                 Lack of Timely, Accurate Data Could Compromise Oversight and
                 Emergency Response

                 Federal and State Government officials need reliable information to
                 perform their oversight duties and respond to emergencies. Untimely and
                 inaccurate data in NSTS can weaken oversight of licensees because NRC
                 and Agreement State regulators use NSTS data for inspections as well as
                 the annual review of licensee inventories. In the event of a serious
                 emergency, untimely and inaccurate data could compromise authorities’
                 response planning and hinder effective deployment of emergency
                 response assets to protect public health and safety. Further, the
                 legislative mandate for NSTS reflects Congress’s concern that
                 Government officials maintain visibility over radiological materials that
                 could present safety hazards and security risks if lost or stolen.

                 Recommendation

                 OIG recommends that the Executive Director for Operations:

                 3. Develop and implement document control policies and processes to
                    improve accountability for NSTS data submitted by licensees to NRC
                    for uploading to NSTS.




36
  FSME contractor personnel cited cases in which they received blank or illegible Form 748s via
facsimile, but lacked contact information to notify licensees of the need to re-transmit the forms. After this
audit was completed, FSME staff told OIG auditors that NRC is working with the FSME contractors to
implement an e-mail system to acknowledge receipt of 748s submitted via facsimile. Staff expect this
system to be implemented by late summer 2010.


                                                      12
                                     Audit of NRC’s Deployment of the National Source Tracking System


        C. Least Privilege Principle Not Consistently Applied to NSTS Access
           Controls

                Federal Government internal controls standards for information systems
                recommend security controls to protect systems and networks from
                inappropriate access and unauthorized use. Although NSTS access rights
                for licensee personnel are scaled to individual users’ job needs, some
                NRC staff have broader access rights that do not reflect individuals’ job
                needs or organizational roles. This occurs because NRC lacks a
                procedure for scaling staff access rights to their respective job needs.
                Although OIG auditors did not find evidence of internal NSTS data
                breaches, the lack of a procedure to ensure consistent application of the
                least privilege principle increases the risk that NSTS data could be
                intentionally or accidentally compromised.

                Access Rights Should Reflect Individual and Organizational
                Business Needs

                Federal Government internal controls standards for information systems
                recommend access security controls to protect systems and networks
                from inappropriate access and unauthorized use. Specifically, National
                Institute of Standards and Technology guidance37 recommends the “least
                privilege” principle, according to which access privileges are scaled to
                information system users’ individual and organizational needs.

                Some Staff Access Rights Not Scaled to Business Needs

                Although NSTS access rights for licensee personnel are scaled to
                individual users’ job needs, some NRC staff have broader access rights
                that do not reflect their job needs or organizational roles. One
                headquarters employee reported having edit capabilities that were not
                necessary for routine work, and said that office management had
                instructed staff not to edit NSTS data. In addition, OIG auditors found that
                one employee had edit rights while on a temporary assignment, but
                retained edit rights 2 months after this assignment ended.38

37
  National Institute of Standards and Technology, Special Publication 800-53, Recommended Security
Controls for Federal Information Systems and Organizations, Revision 3; August 2009.
38
  This staff member reportedly notified a branch chief and the NSTS Help Desk of the situation, but no
change in edit rights resulted.



                                                   13
                                     Audit of NRC’s Deployment of the National Source Tracking System


                NRC Lacks Procedure for Scaling Staff Access Rights to Business
                Needs

                Some NRC staff possess unneeded NSTS edit rights because NRC lacks
                a procedure for ensuring individual staff access rights are scaled to their
                respective job needs. FSME staff told OIG auditors that NRC
                management has raised concerns and requested a “read only” option for
                staff who need to view, but not edit, NSTS data. However, during the time
                of this audit, NRC had not implemented this “read only” option on an as-
                needed basis.39

                Increased Risk of Data Breach

                Granting NSTS users access rights that exceed individual or
                organizational business needs increases the risk that NSTS data could be
                intentionally or accidentally compromised. Although NSTS automatically
                logs edits, NRC staff and contractors who administer the system must
                monitor it for suspicious activity. Applying the principle of least privilege to
                NRC staff who use NSTS would provide an automated control to prevent
                accidental data loss or corruption, and reduce the manual monitoring
                burden for NRC staff who administer NSTS.

                Recommendation

                OIG recommends that the Executive Director for Operations:

                4. Implement “read only” capability in NSTS for NRC staff who must use
                   NSTS, but do not need edit rights to conduct duties in accordance with
                   individual or organizational business needs.




39
  NRC staff have performed a review of staff access rights to the NSTS, established access controls, and
are formalizing a procedure for the continual monitoring of user accounts.


                                                  14
                          Audit of NRC’s Deployment of the National Source Tracking System


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Assess the feasibility of alternative credentialing strategies, such as:

            a. Targeting select types of licensees for smart card use based on
               risk, business case justification, or other criteria.

            b. Reviewing NSTS e-authentication risk assessment for currency
               and, if appropriate, identify technological alternatives to smart card
               authentication.

        2. Develop and implement a policy to ensure Help Desk staff are kept
           current regarding credentialing and technical issues that may
           adversely impact NSTS applicants and users.

        3. Develop and implement document control policies and processes to
           improve accountability for NSTS data submitted by licensees to NRC
           for uploading to NSTS.

        4. Implement “read only” capability in NSTS for NRC staff who must use
           NSTS, but do not need edit rights to conduct duties in accordance with
           individual or organizational business needs.



V. AGENCY COMMENTS

        At an exit conference held on July 28, 2010, agency management stated
        their general agreement with the findings and recommendations in this
        report. Agency management also provided supplemental information that
        has been incorporated into this report as appropriate. As a result, the
        agency opted not to provide formal comments for inclusion in this report.




                                      15
                                     Audit of NRC’s Deployment of the National Source Tracking System


                                                                                          Appendix A
TABLE OF NATIONALLY TRACKED SOURCES LISTED IN
10 CFR 20, APPENDIX E

                  The Terabecquerel (TBq) values are the regulatory standard. The
                  curie (Ci) values specified are obtained by converting from the TBq
                  value. The curie values are provided for practical usefulness only and
                  are rounded after conversion.



Radioactive material     Category 1 (TBq)   Category 1 (Ci)   Category 2 (TBq)   Category 2 (Ci)
Actinium-227             20                 540               0.2                5.4
Americium-241            60                 1,600             0.6                16
Americium-241/Be         60                 1,600             0.6                16
Californium-252          20                 540               0.2                5.4
Cobalt-60                30                 810               0.3                8.1
Curium-244               50                 1,400             0.5                14
Cesium-137               100                2,700             1                  27
Gadolinium-153           1,000              27,000            10                 270
Iridium-192              80                 2,200             0.8                22
Plutonium-238            60                 1,600             0.6                16
Plutonium-239/Be         60                 1,600             0.6                16
Polonium-210             60                 1,600             0.6                16
Promethium-147           40,000             1,100,000         400                11,000
Radium-226               40                 1,100             0.4                11
Selenium-75              200                5,400             2                  54
Strontium-90             1,000              27,000            10                 270
Thorium-228              20                 540               0.2                5.4
Thorium-229              20                 540               0.2                5.4
Thulium-170              20,000             540,000           200                5,400

Ytterbium-169            300                8,100             3                  81




                                                    16
                   Audit of NRC’s Deployment of the National Source Tracking System


                                                                   Appendix B
NRC FORM 748 NSTS TRANSACTION REPORT




                               17
                         Audit of NRC’s Deployment of the National Source Tracking System


                                                                             Appendix C


SURVEY DISTRIBUTED TO AGREEMENT STATE PERSONNEL

        OIG auditors sent a survey questionnaire by e-mail to 42 Agreement State
        personnel to gather feedback regarding deployment and use of NSTS,
        and received 38 responses. This was a non-statistical survey;
        consequently, results cannot be projected to the entire population of
        Agreement State personnel who use NSTS. However, the survey’s high
        response rate gives auditors confidence that survey results provide
        relevant information about Agreement State user experiences. A copy of
        the survey questionnaire follows.




                                     18
Audit of NRC’s Deployment of the National Source Tracking System




            19
Audit of NRC’s Deployment of the National Source Tracking System




            20
                          Audit of NRC’s Deployment of the National Source Tracking System


                                                                              Appendix D
SURVEY DISTRIBUTED TO LICENSEE PERSONNEL

        OIG auditors sent a survey questionnaire by e-mail to 68 licensee
        personnel to gather feedback regarding deployment and use of NSTS.
        Auditors selected these personnel from NRC records of active NSTS
        accounts and transaction data. Auditors received 27 responses. This was
        a non-statistical survey; consequently, results cannot be projected to the
        entire population of licensee personnel who use NSTS. However, auditors
        stratified this survey to obtain information from licensees characterized as
        high, medium, and low-volume users based on their respective rates of
        transactions performed in NSTS. The survey’s response rate, which
        includes responses from all three groups of high, medium, and low-volume
        users, gives auditors confidence that survey results provide relevant
        information about user experiences from a diverse group of licensee
        organizations. A copy of the survey questionnaire follows.




                                      21
Audit of NRC’s Deployment of the National Source Tracking System




            22
Audit of NRC’s Deployment of the National Source Tracking System




            23
                         Audit of NRC’s Deployment of the National Source Tracking System


                                                                             Appendix E
SCOPE AND METHODOLOGY

       The objective of this audit was to determine if the National Source
       Tracking System meets its required operational capabilities.

       Auditors reviewed Federal Government laws and regulations, NRC
       guidance, security controls, and internal controls associated with the
       National Source Tracking System to include:

          2005 Energy Policy Act.
          The Code of Federal Regulations.
          National Institute of Standards and Technology Special Publications.
          Federal Bridge Certification Authority Certificate Policy.
          Government Accountability Office Standards for Internal Control in the
          Federal Government.

       Auditors interviewed staff from FSME, OIS, CSO and contractors who
       have worked with NSTS. Auditors reviewed contract documents, NSTS
       reports, e-mail correspondence, NSTS information system design
       documents, and briefing materials. Auditors provided a survey to
       Agreement State and licensee personnel, and analyzed the survey results.
       Appendixes C and D contain copies of the survey forms distributed to
       Agreement State and licensee personnel.

       Auditors further analyzed NSTS and credentialing services contract
       documents to calculate contract costs directly related to the system’s use.
       Auditors also obtained staff hour data for fiscal year 2009 through the first
       quarter of fiscal year 2010 to calculate staff hours charged for NSTS
       operations.

       This performance audit was conducted at NRC headquarters from
       January 2010 through May 2010 in accordance with generally accepted
       Government auditing standards. Those standards require that the audit is
       planned and performed with the objective of obtaining sufficient,
       appropriate evidence to provide a reasonable basis for any findings and
       conclusions based on the stated audit objective. OIG believes that the
       evidence obtained provides a reasonable basis for the report findings and
       conclusions based on the audit objective. Internal controls related to the


                                     24
                 Audit of NRC’s Deployment of the National Source Tracking System


audit objective were reviewed and analyzed. Throughout the audit,
auditors were aware of the possibility or existence of fraud, waste, or
misuse in the program. The audit work was conducted by Beth Serepca,
Team Leader; Paul Rades, Audit Manager; Robert Woodward, Audit
Manager; and Mitzi Lorette, Senior Auditor.




                             25
